September 4, 2009

DAVID E. WILLIAMS
VICE PRESIDENT, ENGINEERING

SUBJECT:      Audit Report – Flats Sequencing System: First Article Retest Results
              (Report Number DA-AR-09-012)

This report presents the results of our audit of the retest of the Flats Sequencing System
(FSS) First Article Test (FAT). The objective of this audit was to review the FAT 2A retest
results and assess compliance with the overall statement of work (SOW) requirements
and performance criteria outlined in Section AA of the SOW (Project Number
09YG032DA000). The purpose of the FAT 2A retest was to determine whether FSS
performance justified advancing to the field installation and acceptance test phase of the
program. We will issue a second audit report after completion of the FAT 2B test. See
Appendix A for additional information about this audit.

Conclusion:

Although FSS machine performance improved since the original FAT test, the system
failed to meet key SOW performance parameters. See Appendix B for our detailed
analysis of this topic.

The U.S. Postal Service measured several key performance parameters, including
throughput, availability, and mail damage. The Postal Service attributed FSS performance
shortcomings to the lack of additional hardware and software solutions that were not
incorporated into the FAT 2A system. Failure to meet SOW performance requirements
would reduce forecasted savings and increase operational burdens.

Although the FSS did not meet some key performance parameters, management
concluded that the system’s progress from the first FAT test warranted continuing with the
next phase of installations and acceptance tests for production systems. However, until a
system outside of the Dulles Processing and Distribution Center (P&DC) demonstrates
operational stability and achieves the minimum performance requirements under field
acceptance test conditions, we believe deploying FSS machines to additional sites is
premature.
Flats Sequencing System:                                                     DA-AR-09-012
 First Article Retest Results




We recommend the Vice President, Engineering:

   1. Install and test only one additional Flats Sequencing System until the system
      demonstrates operational stability and successfully passes the field acceptance test.

Management’s Comments

Management partially agreed with the finding and recommendation. They began to
conduct an acceptance test on August 30, 2009, at the Old Columbus Postal Facility in
Columbus, OH, to ensure future deployments do not adversely affect savings and
operations. The contractor provided a recovery plan on August 24, 2009 to the Postal
Service which is under review. Additional installations will be based on whether this plan
is acceptable to the Postal Service. See Appendix C for management’s comments in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issue identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


   E-Signed by Office of Inspector General
     VERIFY authenticity with ApproveIt



Andrea Deadwyler
Acting Deputy Assistant Inspector General
 for Support Operations

cc: Don E. Crone
    Aron M. Sanchez
    Bill Harris



                                             2
Flats Sequencing System:                                                                          DA-AR-09-012
 First Article Retest Results


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In December 2006, the Postal Service approved a $1.4 billion Phase I Decision Analysis
Report (DAR) to develop, purchase, and deploy 100 FSS machines to 41 sites. The DAR
stated that the FSS machines will process flats1 from mailstreams produced by the
Automated Flat Sorting Machine 100 and the Upgraded Flat Sorting Machine 1000. In
addition, the FSS machines will process a significant portion of the flats that currently
arrive at delivery units in mailer-prepared bundles and sacks. With a $1.4 billion budget,
the FSS program is currently the largest Postal Service mail automation investment and
the agency expects it to generate operational savings of $599.5 million annually.

The Postal Service contracted with Northrop Grumman Systems Corporation to provide
102 FSS systems to automate the delivery point sequencing of flat mail. The original FAT
was conducted from November 23 to December 20, 2008. The FAT 2A test was
conducted over a 12-day period beginning April 26 and ending May 9, 2009, at the Dulles
P&DC.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to review FAT 2A retest results and assess compliance with
the overall SOW requirements and performance criteria outlined in Section AA of the
SOW. To accomplish our objective, we analyzed and reviewed FAT 2A performance data.
We compared our analysis to the SOW performance requirements and discussed
performance deficiencies with program management.

We conducted this performance audit from May through September 2009 in accordance
with generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
recommendation based on our audit objective. We discussed our observations and
conclusions with management officials on July 21, 2009, and included their comments
where appropriate.




1
 Flats are mailpieces that exceed one of the maximum dimensions of letter-size mail. Large envelopes, newspapers,
catalogs, circulars, and magazines are examples of flats.



                                                         3
Flats Sequencing System:                                                             DA-AR-09-012
 First Article Retest Results


PRIOR AUDIT COVERAGE

                               Report
      Report Title            Number       Final Report Date              Report Results
  Flats Sequencing          DA-AR-09-001   December 23, 2008   The audit determined that program
  System: Program                                              management was attentive to
  Status                                                       system performance and schedule
                                                               risks. However, declines in mail
                                                               volume introduce a substantial new
                                                               deployment risk to the program that
                                                               requires management to develop a
                                                               mitigation plan.
  Flats Sequencing          DA-AR-08-006     June 4, 2008      The audit determined the Postal
  System: Production                                           Service needed to focus more
  First Article Testing                                        attention on workload, FAT
  Readiness and                                                schedule, and critical deliverables.
  Quality
  Flat Sequencing           DA-AR-07-003     July 31, 2007     The audit determined that Postal
  System Risk                                                  Service Engineering needed to focus
  Management                                                   more attention on risk management
                                                               standards to ensure the significant
                                                               risks associated with deployment of
                                                               the FSS were adequately identified
                                                               and managed.




                                                 4
Flats Sequencing System:                                                                              DA-AR-09-012
 First Article Retest Results


                                  APPENDIX B: DETAILED ANALYSIS

FAT 2A Results Do Not Meet SOW Requirements

As depicted in Table 1, the FAT 2A FSS improved on many SOW performance
requirements from the original FAT test. However, the machine still failed to meet many of
the SOW performance requirements.

                                       Table 1 – FSS FAT 2A Results
                                                           SOW                   FAT 2A                FAT 1
                  Parameter                             Requirement              Results              Results
    Actual Throughput Rate                                16,500                  12,603               10,601
    Normalized Throughput Rate > 15,000                   14,500                  15,566               12,499
    Accuracy Sort Rate                                    98.70%                  98.40%              98.60%
    Accept Rate                                           94.60%                  94.04%              89.90%
    Operational Availability Rate                          95.0%                 64.75%               -16.34%
    Mail Damage Category 3 Rate                           1/2500                2.58/2500            6.35/2500
    Flyout Rates                                         10/10,000             36.92/10,000         66.43/10,000

The following parameters were measured during the FAT 2A retest:

     •   Actual Throughput Rate – The cumulative throughput rate for all zones is
         determined by the total pieces fed on Pass 1 of all zones, divided by the time
         elapsing between first piece fed of the first zone to the time the first tray is ejected
         onto the full tray accumulation conveyor (FTAC) at the end of the last zone, minus
         non-chargeable and Postal Service times.2

     •   Normalized Throughput Rate – The cumulative throughput rate for all zones is
         determined by using total pieces fed on Pass 1 of all zones that had greater than
         15,000 mailpieces, divided by the time elapsing between first piece fed of the first
         zone to the time the first Rigid Captive Tray is ejected onto the FTAC at the end of
         the last zone, minus non-chargeable and Postal Service times.

     •   Accuracy Sort Rate – The Accuracy Sort Rate is determined by the number of out-
         of-sequence errors, divided by the number of delivery point sequence pieces
         verified.

     •   Accept Rate – The cumulative accept rate for all zones is determined by total
         pieces accepted including all machineable mail presented to the system on first
         pass of each zone, divided by pieces fed on first pass of each zone, minus re-fed
         pieces.


2
 Non-chargeable are incidence and associated clock time that are not charged to the supplier in order to calculate the
normalization throughput rate.



                                                           5
Flats Sequencing System:                                                                            DA-AR-09-012
 First Article Retest Results


       •   Operational Availability Rate – The operational availability rate is determined by
           using the total run time, minus total jam time, total corrective maintenance time
           (total time for corrective maintenance performed during preventive maintenance
           was not charged to operational availability), total non-chargeable time, and total
           Postal Service time, divided by total run time, plus total jam, and total corrective
           maintenance time.

       •   Mail Damage Category 3 Rate – The damage rate is determined by pieces fed on
           first pass of each zone, divided by the number of damaged category 3 pieces
           recorded. Mail damage category 3 consists of mailpieces that are so severely torn
           or mutilated they must be sent to the rewrap section or cannot be delivered in their
           current condition.

       •   Flyout Rate – The flyout rate is determined by the number of flyouts3 divided by the
           total flats processed on the first pass of each zone.

The Postal Service attributed FSS performance shortcomings to the lack of additional
hardware and software solutions that were not incorporated into the FAT 2A system due to
an aggressive testing schedule. Failure to achieve the SOW performance requirements
will reduce forecasted savings and increase operational burdens.

Although the FSS did not meet some key performance parameters, Postal Service
management concluded the system’s progress from the first FAT test warranted
continuing with the next phase of the FSS program which consists of installing and
accepting 10 additional FSSs at four locations. While the FAT 2A production machine at
the Dulles P&DC received hands-on support from Postal Service and supplier technicians,
the 10 FSSs scheduled for field installation and acceptance will not have the same level of
support. Until a system outside of the Dulles P&DC achieves the minimum performance
requirements under field acceptance test conditions, we believe deploying multiple FSSs
is premature. Hence, the OIG recommends the Postal Service install and test only one
additional FSS until the identified system demonstrates operational stability and
successfully passes the field acceptance test.




3
    Flyouts are mailpieces that are ejected from mail processing equipment prior to being sorted.



                                                              6
Flats Sequencing System:                                       DA-AR-09-012
 First Article Retest Results


                           APPENDIX C: MANAGEMENT’S COMMENTS




                                           7
Flats Sequencing System:            DA-AR-09-012
 First Article Retest Results




                                8
